Seaport West
155 Seaport Boulevard
Boston, MA 02210-2600
617.832.1000 main
617.832.7000 fax

Donald R. Ware
617-832-1167 direct
DRW@foleyhoag.com

April 5, 2021
By First-Class Mail and
Electronic Filing
The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Attn: Danny Bickell, Esq.
Re:

Ono Pharm. Co., Ltd., et al. v. Dana-Farber Cancer Inst., Inc.,
No. 20-1258

Dear Mr. Harris:
As counsel of record for respondent Dana-Farber Cancer Institute, Inc. in
the above-captioned case, I am writing to request an 8-day extension of time to
file a brief in opposition in this case to and including April 20, 2021. The
certiorari petition was filed on March 8, 2021, and it was docketed on March 11,
2021. Without the requested extension, the brief in opposition would be due on
April 12, 2021.
The 8-day extension to file a brief in opposition to the certiorari petition is
necessary in light of the press of other, previously engaged matters, including
preparing for a dispositive motion hearing in Dana-Farber v. Bristol-Myers
Squibb et al., C.A. No. 1:19-cv-11380-PBS (D. Mass.), expert depositions in
ChromaDex et al. v. Elysium Health, Inc., C.A. No. 18-cv-01434-CFC (D. Del.),
and an intervening Massachusetts state holiday on April 19.

ATTORNEYS AT LAW

FH5263895.1

BOSTON | NEW YORK | PARIS | WASHINGTON | FOLEYHOAG.COM

The Honorable Scott S. Harris
April 5, 2021
Page 2
Counsel for petitioners has stated that petitioners consent to the requested
extension.
Thank you for your assistance. If you have any questions, please call me
at (617) 832-1000.
Sincerely,

Donald R. Ware
Counsel of Record for Respondent
Dana-Farber Cancer Institute, Inc.
cc:

Counsel of Record for Petitioners

FH5263895.1

